  DEPARTMENT OF HOMELAND SECURITY
   `


           Office of Inspector General


          Additional Guidance and Security
       Controls Are Needed Over Systems Using
                     RFID at DHS
                      (Redacted)




       Notice: The Department of Homeland Security, Office of Inspector General, has
       redacted this report for public release. A review under the Freedom of Information Act
       will be conducted upon request.



                     Office of Information Technology
                                                                                          1
OIG-06-53                                                                     July 2006
                                                                       Office of Inspector General

                                                                       U.S. Department of Homeland Security
                                                                       Washington, DC 20528




                                            July 27, 2006

                                             Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibility to promote economy, efficiency, and effectiveness within the department.

This report assesses the strengths and weaknesses of controls over systems using Radio Frequency
Identification (RFID) at DHS. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observations, technical scans, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. It is our hope that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                             Richard L. Skinner
                                             Inspector General
Table of Contents/Abbreviations

  Executive Summary ...................................................................................................................1

  Background ................................................................................................ 3

  Results of Audit........................................................................................... 5

       RFID Policy and Guidance Have Not Been Developed .....................................................5

       Security Needs to be Incorporated in the Development of All RFID Systems ...................7

       Security Controls Need Strengthening.................................................................................7

  Recommendations......................................................................................................................9

  Management Comments and OIG Analysis ..............................................................................9

Appendices
  Appendix A:           Purpose, Scope, and Methodology .................................................................10
  Appendix B:           Management Response To Draft Report .......................................................11
  Appendix C:           Types of RFID Tags and Common RFID Operating Frequencies.................13
  Appendix D:           Major Contributors to this Report ..................................................................14
  Appendix E:           Report Distribution.........................................................................................15

Abbreviations
  AIDMS                 Automated Identification Management System
  CBP                   U.S. Customs and Border Protection
  CIO                   Chief Information Officer
  DHS                   Department of Homeland Security
  FAST                  Free and Secure Trade
  GAO                   Government Accountability Office
  Gen2                  Generation 2
  GES                   Global Enrollment System
  OIG                   Office of Inspector General
  RFID                  Radio Frequency Identification
  S&T                   Science and Technology
  TSA                   Transportation Security Administration
  US-VISIT              United States Visitor and Immigrant Status Indicator Technology
  WMO                   Wireless Management Office



                 Additional Guidance and Security Controls Are Needed Over Systems Using RFID at DHS
OIG
Department of Homeland Security
Office of Inspector General

Executive Summary
                    We audited the Department of Homeland Security (DHS) and its
                    organizational components to evaluate the effectiveness of controls
                    implemented or planned on systems using Radio Frequency Identification
                    (RFID) technology. Further, for systems utilizing RFID technology that
                    were in the planning stages, we determined whether security controls were
                    adequately addressed during the system development process.

                    RFID is a wireless technology that stores and retrieves data remotely from
                    devices. Systems employing RFID technology include tags and readers on
                    the front end and applications and databases on the back end. The
                    technology allows sensitive information to be read and written to tags and
                    for numerous tags to be scanned simultaneously from a distance. The
                    flexibility and portability of RFID technology and devices, as well as the
                    information that resides on the tags, increase the need for security and
                    privacy controls.

                    We performed our audit at four DHS organizational components: Science
                    and Technology (S&T), Transportation Security Administration (TSA),
                    U.S. Customs and Border Protection (CBP), and U.S. Visitor and
                    Immigrant Status Indicator Technology (US-VISIT) Program. Our results
                    were summarized in separate reports with findings and recommendations
                    issued to CBP, TSA, and US-VISIT. No report was issued to S&T as its
                    efforts in RFID involved only systems in the early stages of development.

                    CBP, TSA, and US-VISIT have implemented effective physical security
                    controls over RFID tags, readers, computer equipment, and databases
                    supporting the RFID systems at the sites visited. No personal information
                    is stored on the tags. Sensitive information is maintained in and can be
                    obtained only with access to the system’s database. Additional security
                    controls would be required if any component decides to store sensitive or
                    personal information on RFID tags or migrates to universally readable
                    Generation 2 (Gen2) products.

                    Overall, good physical security controls exist on the RFID systems we
                    audited. However, there remain other concerns that should be addressed
                    to help improve system security. DHS needs to develop policy and
                    procedures regarding RFID technology, incorporating security planning

         Additional Guidance and Security Controls Are Needed Over Systems Using RFID at DHS

                                               Page 1
           while in system development, and strengthen database security controls.
           These security-related concerns, if not addressed, increase the potential for
           unauthorized access to DHS resources and data.

           The DHS Chief Information Officer (CIO) has not developed
           department-wide policies and guidance regarding the management and
           protection of RFID systems. Further, none of the four components
           reviewed has developed its own RFID policies in order to protect their
           RFID systems. In addition, operating procedures for RFID systems at
           CBP and US-VISIT, including physical security of unused tags and proper
           destruction of damaged tags, were either incomplete or not followed
           consistently.

           CBP, TSA, and US-VISIT need to determine whether the necessary
           database security controls are being implemented in their RFID systems.
           Our vulnerability assessments of two CBP systems (Global Enrollment
           System (GES) and Free and Secure Trade (FAST)) as well as US-VISIT’s
           Automated Identification Management System (AIDMS) identified
           security concerns with user account and password management, user
           access permissions, and auditing. In addition, system configuration
           weaknesses exist with TSA’s weapons management system, and finally,
           the systems at CBP and TSA lacked accreditation. We identified similar
           issues in other DHS components’ database systems in our December 2005
           report, Security Weaknesses Increase Risk to Critical DHS Databases.
           Processes need to be put in place at the department level to ensure that
           database security concerns at all DHS components are addressed and
           mitigated.

           We are recommending that the DHS CIO:
           •   Develop and implement policy and guidance that addresses security
               controls for systems being implemented using RFID technology.
           •   Direct the DHS RFID Coordination Group to finalize its charter and
               ensure that all components using or planning to use RFID technologies
               are represented in the group.
           •   Ensure that components adhere to DHS information security
               procedures (that is, perform vulnerability assessments and review user
               access at least annually) for all systems using RFID technology.

           In response to our draft report, DHS agreed and plans to take steps to
           implement each of the recommendations. DHS’ response is summarized
           and evaluated in the body of this report and included, in its entirety, as
           Appendix B.
Additional Guidance and Security Controls Are Needed Over Systems Using RFID at DHS

                                      Page 2
Background
                  RFID is a wireless technology that stores and retrieves data remotely on
                  devices called RFID tags. RFID can be used almost anywhere -- from
                  clothing tags to missiles. Technology components of an RFID system
                  consist of a tag, reader, and database (see Figure 1).

                  Figure 1: Components of an RFID System




                  In a typical RFID system, individual objects are equipped with a small,
                  inexpensive tag that contains a transponder with a digital memory chip
                  and a unique electronic product code. The RFID reader, which is an
                  antenna packaged with a transceiver and decoder, emits a signal activating
                  the tag so it can read and write data to the tag. The reader decodes the
                  data in the tag’s integrated circuit, and that data is then passed to a host
                  computer’s database for processing.

                  The tags are small objects that can be attached to or incorporated into a
                  product, much like the standard bar codes on products in the supermarket.
                  The difference is that while it takes a laser to scan a standard bar code and
                  read its information, an RFID tag stores its identifying code on a tiny
                  microchip and transmits it wirelessly to a reader device. RFID technology
                  allows more tags to be scanned simultaneously from a greater distance,
                  and it allows individual items - not just types of items - to be assigned
                  unique identifying codes. There are three types of tags in use today:
                      •    Active tags can store large amounts of information using a power
                           source within the tag.
                      •    Passive tags do not use a separate external power source but rather
                           obtain operating power from the tag reader.
                      •    Semi-passive tags use an internal power source to monitor
                           environmental conditions, and require radio frequency energy
                           transferred from the reader to power a tag’s response (similar to
                           passive tags).

       Additional Guidance and Security Controls Are Needed Over Systems Using RFID at DHS

                                             Page 3
                           Generation 1 tags use proprietary technology, which means that if
                           Company A puts an RFID tag on a product it cannot be read by Company
                           B unless both use the same RFID system supplied from the same vendor.
                           In addition, a new RFID standard, Gen2, was ratified in December 2004
                           by the RFID international standards organization EPCglobal. The purpose
                           of the Gen2 standard is to improve the interoperability among different
                           RFID products and systems from various manufacturers and different
                           frequencies used in different countries worldwide. Gen2 compliant
                           products feature enhanced security controls, too.

                           There are four main frequencies used for RFID systems: low, high,
                           ultrahigh, and microwave. Generally, the higher the frequency, the greater
                           the distance from which tags can be read. See Appendix C for a summary
                           of the typical characteristics of RFID tags and the operating frequencies
                           for passive tags.

                           The use of RFID technology has introduced new security risks to agency
                           systems. The flexibility and portability of RFID technology and devices
                           increase the need for security. Without effective security controls, data on
                           a tag can be read by any compliant reader; data transmitted through the air
                           can be intercepted and read by unauthorized devices; and data stored in the
                           system databases can be accessed by unauthorized users. In addition, a
                           May 2005 Government Accountability Office (GAO) report raised privacy
                           concerns related to the use of tags and databases. Among the privacy
                           issues is notifying individuals of the existence or use of the technology. 1

                           The DHS Wireless Management Office (WMO) was established within
                           the DHS Office of the CIO to coordinate the development of policy and
                           strategy for the use of wireless technologies across the department. One
                           of its objectives is to identify emerging technologies such as RFID. The
                           DHS RFID Coordination Group was formed under the leadership of the
                           WMO in October 2005. The group serves as a forum for DHS
                           components implementing RFID projects or interested in using RFID
                           technologies.

                           At the start of our review, DHS did not have an accurate inventory of
                           systems using RFID technology. Therefore, we issued a data call to the
                           Information Systems Security Managers at 12 components to determine
                           the extent that RFID is used at DHS. Most of the DHS components do not
                           have any production systems utilizing RFID. Only CBP (starting in 2002)

1
    Radio Frequency Identification Technology in the Federal Government (GAO-05-551, May 2005).

                Additional Guidance and Security Controls Are Needed Over Systems Using RFID at DHS

                                                      Page 4
                   and US-VISIT (starting in 2005) have mission critical systems utilizing
                   RFID. Other components such as S&T and TSA are testing RFID
                   technology with systems under development.


Results of Audit

  RFID Policy and Guidance Have Not Been Developed
                   DHS has not developed a department-wide RFID policy or guidance to
                   provide direction to the components regarding the management and
                   protection of systems using this technology. In addition, none of the four
                   components reviewed (CBP, S&T, TSA, and US-VISIT) have developed
                   their own RFID policies. Further, operating procedures for RFID systems
                   at CBP and US-VISIT were either incomplete or not followed
                   consistently. Without specific RFID policy and procedures, DHS cannot
                   ensure that effective controls are put into practice at all components using
                   this technology.

                   DHS issued its Sensitive Systems Policy Publication 4300A (DHS Policy)
                   and its companion, DHS Sensitive Systems Handbook (DHS Handbook),
                   to provide direction to its components regarding the management and
                   protection of sensitive systems, including wireless communication
                   technologies and devices. Additionally, the policy outlines management,
                   operational, and technical controls necessary to ensure confidentiality,
                   integrity, availability, and authenticity within the DHS information
                   technology infrastructure and operations.

                   The WMO is in the process of developing the DHS Information
                   Technology Security Program Handbook for Sensitive Wireless Systems
                   (DHS Wireless Handbook). This handbook will be issued as
                   implementation guidance to address security and countermeasures that can
                   be applied to sensitive wireless systems. In addition, the WMO is
                   currently developing an RFID implementation guide.

                   The DHS Policy, DHS Handbook, and draft DHS Wireless Handbook do
                   not have specific policy or guidance to address RFID technologies. RFID
                   policies are needed to define the acceptable use of the technology and
                   ensure that adequate controls are implemented to mitigate the risks
                   associated with its use. For example, DHS’ wireless policy does not
                   specify the controls needed to mitigate vulnerabilities that are susceptible



        Additional Guidance and Security Controls Are Needed Over Systems Using RFID at DHS

                                              Page 5
                           to RFID technology, such as counterfeiting or cloning, 2 replay, 3 and
                           eavesdropping. The policy should specify that only authorized RFID
                           readers can read and process the information from the tag, and ensure that
                           data stored on the tag is protected from unauthorized modification.

                           The WMO drafted a charter for the RFID Coordination Group in
                           December 2005. Included in the mission of the coordination group, as
                           stated in the draft charter, is establishing department-wide polices to
                           procure and implement RFID systems, and to compile best practices and
                           lessons learned in areas such as RFID system architecture, standards, and
                           security. According to the draft charter, the members of the group should
                           be project managers, technical representatives, and other members from
                           DHS components, including the DHS Privacy Office, who are
                           implementing RFID projects or who are interested in using RFID
                           technologies. However, attendance at the meetings has been minimal -
                           limited to WMO personnel and irregular attendance from representatives
                           from DHS Asset Management, S&T, TSA, and US-VISIT. Although CBP
                           has RFID systems in production, no representatives have attended any of
                           the meetings.

                           CBP developed operating procedures for its systems using RFID.
                           However, it did not address all aspects of RFID technology, such as
                           physical security of unused RFID-enabled cards and the proper destruction
                           of damaged RFID-enabled cards. In addition, procedures for the
                           destruction of RFID-enabled forms that were issued by US-VISIT
                           headquarters to the ports of entry using RFID were not followed
                           consistently.

                           Issuing a sound RFID policy and guidance is the first step in ensuring that
                           adequate security controls are implemented across the department to
                           protect systems employing the technology or mitigating the risks
                           associated with the use of RFID. Since the department is considering a
                           common RFID standard for all border crossing identification cards,
                           issuing department-wide policy and guidance is needed to help ensure that
                           consistent standards and controls are implemented. Furthermore, RFID
                           systems operating without required security management practices
                           increase the possibility that security controls protecting DHS systems can
                           be circumvented. In addition, a department-wide working group with
                           representation from all components is needed to assist the department in


2
 Cloning an RFID tag occurs when an attacker produces an unauthorized copy of a legitimate tag.
3
 A replay is an attack when a legitimate data transmission is fraudulently repeated, either by the originator or by an
adversary who intercepts the data and retransmits it.

               Additional Guidance and Security Controls Are Needed Over Systems Using RFID at DHS

                                                        Page 6
                developing and implementing RFID policy, guidance, standards, and best
                practices.

Security Needs To Be Incorporated in the Development of All
RFID Systems
                Security controls are not integrated into all RFID systems that are
                currently under development within DHS. To be most effective, security
                controls must be addressed during the system development process.
                Without integrating security controls in the system development process,
                there is little assurance that adequate security will be incorporated into
                systems using RFID technology once they become operational.

                Currently, S&T has systems under development on behalf of TSA and
                CBP that may employ RFID technology. However, security is not always
                incorporated when developing the RFID systems. Specifically:
                    •    Testing of security features was not included in the scope of TSA’s
                         feasibility evaluation to manage and track both domestic and
                         international cargo and passenger baggage.
                    •    Detailed security requirements were not specified in S&T’s
                         proposal to contractors to develop a secure carton system for CBP,
                         as it only required that the cartons have an active RFID chip and be
                         secure.

                The National Institute of Standards and Technology requires that security
                controls be fully documented. Furthermore, the security controls
                developed for a new information system must be tested and evaluated
                prior to deployment to ensure that the controls are working properly and
                are effective. In addition, DHS policy requires that security be integrated
                into the Systems Development Life Cycle, which includes the planning,
                requirements definition, design, development, test, and implementation
                phases. Without considering and incorporating security controls during all
                phases of a project’s development, there is no assurance that all required
                security features will be considered prior to a system becoming
                operational.

Security Controls Need Strengthening
                DHS needs to strengthen controls over the systems that support RFID
                technology. We identified vulnerabilities on databases that could be
                exploited to gain unauthorized or undetected access to sensitive data. We

     Additional Guidance and Security Controls Are Needed Over Systems Using RFID at DHS

                                           Page 7
                           identified similar issues in other DHS database systems in our
                           December 2005 report, and recommended that the CIO ensure that
                           components adhere to DHS information security procedures. 4 Adequate
                           security procedures for all DHS databases are needed to ensure that data
                           captured and stored is properly protected.

                           We performed vulnerability assessments and reviewed configuration
                           settings on databases supporting CBP (GES, FAST) and US-VISIT
                           (AIDMS) systems using RFID technology. Security improvements are
                           needed to address areas such as user account and password management,
                           user access permissions, and auditing.

                           We identified vulnerabilities at CBP and US-VISIT relating to password
                           administration, user access permissions, and auditing. ------- ------------- -
                           ---------------------------------------- ---- - ---------------------------- ----------- --
                           ----------------------------- ---------------------------------------------------------
                           --------------- - ----------------------- - ----- ---------------------------------------
                           ----- ----------------------- ------------ -- -------------------------- -- - ---------
                           ------------------------ - ------------------- -------------- - -------------------------
                           --------------- Also, we identified additional vulnerabilities at CBP relating
                           to user account and password management. --------------------------
                           ----------------- ---------- - -------------- ------------- -------------------------------
                           ------------------ ------------------------------------- -------- -----------------------
                           ------- -------------------

                           Our review of TSA’s security configuration for its weapons management
                           system identified system configuration weaknesses, including -----------
                           --------------------------------------------- --------------------------------------
                           ------------------------------ ------------- - We noted that systems at CBP and
                           TSA lacked an accreditation to operate, too.

                           These weaknesses are an indication that user accounts and passwords may
                           not be effective to control access to DHS sensitive data. In addition, ----
                           --------------------------------------------- ------------- --------------- ------------
                           -------------------------- ---------------------

                           The Federal Information Security Management Act requires federal
                           agencies to perform periodic testing to evaluate the effectiveness of
                           security controls. Office of Management and Budget Circular A-130
                           Appendix III requires federal agencies to provide adequate security to
                           their systems and restrict access to authorized users only. Without

4
    Security Weaknesses Increase Risk to Critical DHS Databases (OIG-06-17, December 2005).

                Additional Guidance and Security Controls Are Needed Over Systems Using RFID at DHS

                                                       Page 8
                  adequate procedures to ensure that all material vulnerabilities are
                  identified and reviewed, management cannot make certain that data in its
                  critical systems is secure. At the completion of our assessments, we
                  issued technical reports to CBP and US-VISIT detailing the specific
                  vulnerabilities detected on their databases and the actions needed for
                  remediation.

Recommendations
                  We recommend that the DHS CIO:

                  1. Develop and implement policy and guidance that addresses security
                     controls for systems being implemented using RFID technology; and
                     ensure that policies and guidance are distributed to all components.
                  2. Direct the DHS RFID Coordination Group to finalize its charter, and
                     ensure that all components using and planning to use RFID
                     technologies are represented in the group.
                  3. Ensure that components adhere to the DHS information security
                     procedures, such as perform vulnerability assessments and review user
                     access at least annually, for all systems using RFID technology.

Management Comments and OIG Analysis
                  DHS agreed with recommendation 1. DHS plans to revise its DHS Policy
                  and DHS Handbook to address RFID technology by October 2, 2006.

                  We agree that the steps DHS plans to take satisfy this recommendation.

                  DHS agreed with recommendation 2. The DHS RFID Coordination
                  Group will finalize its charter and include all components using or
                  planning to use RFID technologies by September 30, 2006.

                  We agree that the steps DHS plans to take satisfy this recommendation.

                  DHS agreed with recommendation 3. DHS plans to modify its
                  certification and accreditation methodology to incorporate improved
                  vulnerability assessments. In addition, DHS plans to improve procedures
                  over user access reviews by September 30, 2006.

                  We agree that the steps DHS plans to take begin to satisfy this
                  recommendation.


       Additional Guidance and Security Controls Are Needed Over Systems Using RFID at DHS

                                             Page 9
                  Appendix A
                  Purpose, Scope, and Methodology




Purpose, Scope, and Methodology
                  Our objective was to determine whether DHS and its components have
                  implemented effective controls to protect critical data processed by its
                  RFID systems from unauthorized access. Specifically, we determined
                  whether: (1) DHS and its components developed adequate policies and
                  procedures to ensure the confidentiality, integrity, and availability of data
                  contained on its RFID systems; (2) adequate physical and logical security
                  controls are implemented on its RFID systems; (3) controls implemented
                  to protect the privacy of personal data collected and processed by RFID
                  devices were adequate; and, (4) systems using RFID technology are in
                  compliance with Federal Information Security Management Act
                  requirements.

                  To accomplish our audit, we conducted fieldwork at the following
                  components: CBP, S&T, TSA, and US-VISIT. We interviewed personnel
                  at the Office of the CIO and the components. In addition, we reviewed
                  and evaluated DHS and component security policies, procedures, and
                  other appropriate documentation.

                  During the audit, we reviewed database settings and used a software tool
                  (Internet Security Systems’ Database Scanner) to detect and analyze
                  vulnerabilities on database servers. Also, we used two RFID tools
                  (spectrum analyzer and card reader) to attempt to gain information about
                  the RFID usage at the ports of entry.

                  We conducted our audit between November 2005 and February 2006
                  under the authority of the Inspector General Act of 1978, as amended, and
                  according to generally accepted government auditing standards. Major
                  OIG contributors to the audit are identified in Appendix D.

                  The principal OIG points of contact for the audit are Frank Deffer,
                  Assistant Inspector General, Office of Information Technology at
                  (202) 254-4100 and Edward G. Coleman, Director, Information Security
                  Audits Division at (202) 254-5444.




       Additional Guidance and Security Controls Are Needed Over Systems Using RFID at DHS

                                            Page 10
           Appendix B
           Management Response To Draft Report




Additional Guidance and Security Controls Are Needed Over Systems Using RFID at DHS

                                     Page 11
           Appendix B
           Management Response To Draft Report




Additional Guidance and Security Controls Are Needed Over Systems Using RFID at DHS

                                     Page 12
                     Appendix C
                     Types of RFID Tags and Common RFID Operating Frequencies




                         Typical Characteristics of RFID Tags
 Types of Tags               Power Supply                   Read Range            Type of Memory
Active               Internal battery                      Up to 750 feet        Read-write
Semi-passive         Internal battery                      Up to 100 feet        Read-write
Passive              External (from reader)                Up to 20 feet         Mostly read-only




            Common RFID Operating Frequencies for Passive Tags
        Frequency                    Typical read                        Examples of use
                                    range and rate
Low              125 KHz          1.5 feet; low            Access control, animal tracking, point of
frequency                         reading speed            sale application.
High             13.56 MHz        3 feet; medium           Access control, smart cards, item level
frequency                         reading speed            tracking.
Ultrahigh        860-930          Up to 15 feet; high      Pallet tracking, supply chain
frequency        MHz              reading speed            management.
Microwave        2.45/5.8         3 feet; high             Supply chain management.
frequency        GHz              reading speed




          Additional Guidance and Security Controls Are Needed Over Systems Using RFID at DHS

                                               Page 13
           Appendix D
           Major Contributors to this Report



           Information Security Audits Division

           Edward G. Coleman, Director
           Jeff Arman, Audit Manager
           Chiu-Tong Tsang, Audit Team Leader
           Charles Twitty, Auditor
           Swati Mahajan, Information Technology Specialist
           Sharell Matthews, Referencer

           Advanced Technology Division

           Lane Melton, Senior Security Engineer
           Michael Goodman, Security Engineer




Additional Guidance and Security Controls Are Needed Over Systems Using RFID at DHS

                                      Page 14
           Appendix E
           Report Distribution



           Department of Homeland Security

           Secretary
           Deputy Secretary
           Chief of Staff
           Deputy Chief of Staff
           General Counsel
           Executive Secretary
           Under Secretary, Management
           Assistant Secretary, Legislative and Intergovernmental Affairs
           Assistant Secretary, Policy
           Assistant Secretary, Public Affairs
           Chief Information Officer
           Chief Information Security Officer
           Director, Departmental GAO/OIG Liaison Office
           Director, Compliance and Oversight Program, Office of CIO
           Chief Information Officer Audit Liaison

           Office of Management and Budget

           Chief, Homeland Security Branch
           DHS OIG Budget Examiner

           Congress

           Congressional Oversight and Appropriations Committees, as appropriate




Additional Guidance and Security Controls Are Needed Over Systems Using RFID at DHS

                                     Page 15
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to DHS Office of
Inspector General/MAIL STOP 2600, Attention: Office of Investigations –
Hotline, 245 Murray Drive, SW, Building 410, Washington, DC 20528; fax
the complaint to (202) 254-4292; or email DHSOIGHOTLINE@dhs.gov. The
OIG seeks to protect the identity of each writer and caller.
